IN THE SUPREME COURT OF THE UNITED STATES

LOPEZ, JUAN FRANCISCO
Petitioner
vs.

No:

20-7047

ROBERT M. WILKERSON, ACTING ATTORNEY
GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
February 19, 2021
cc:
JUAN FRANCISCO LOPEZ
A095-059-003
BUFFALO FEDERAL DETENTION
FACILITY
4250 FEDERAL DRIVE
BATAVIA, NY 14020

